<html>
<title> - TROOPS, DIPLOMATS, AND AID: ASSESSING STRATEGIC RESOURCES FOR AFGHANISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
     TROOPS, DIPLOMATS, AND AID: ASSESSING STRATEGIC RESOURCES FOR 
                              AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2009

                               __________

                           Serial No. 111-81

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
61-798                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1374637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     Andrew Wright, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 26, 2009...................................     1
Statement of:
    Barno, David W., Lieutenant General, retired, U.S. Army, and 
      Director, Near East South Asia Center for Strategic 
      Studies, National Defense University; James Dobbins, 
      director, Center for International Security and Defense 
      Policy, RAND Corp.; Frederick W. Kagan, Ph.D., resident 
      scholar, American Enterprise Institute for Public Policy 
      Research; and David Kilcullen, Ph.D., senior non-resident 
      fellow, Center for a New American Security, and partner, 
      Crumpton Group.............................................     5
        Barno, David W...........................................     5
        Dobbins, James...........................................    38
        Kagan, Frederick W.......................................    53
        Kilcullen, David.........................................    60
Letters, statements, etc., submitted for the record by:
    Barno, David W., Lieutenant General, retired, U.S. Army, and 
      Director, Near East South Asia Center for Strategic 
      Studies, National Defense University, prepared statement of     8
    Dobbins, James, director, Center for International Security 
      and Defense Policy, RAND Corp., prepared statement of......    41
    Kagan, Frederick W., Ph.D., resident scholar, American 
      Enterprise Institute for Public Policy Research, prepared 
      statement of...............................................    55
    Kilcullen, David, Ph.D., senior non-resident fellow, Center 
      for a New American Security, and partner, Crumpton Group, 
      prepared statement of......................................    63


     TROOPS, DIPLOMATS, AND AID: ASSESSING STRATEGIC RESOURCES FOR 
                              AFGHANISTAN

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Welch, Driehaus, Cuellar, 
Kucinich, Flake, and Jordan.
    Staff present: Dave Turk, staff director; Elliot Gillerman, 
clerk; Andy Wright, counsel; Alex McKnight, State Department 
fellow; Margaret Costa, intern; John Cuaderes, minority deputy 
staff director; Dan Blankenburg, minority director of outreach 
and senior advisor; Adam Fromm, minority chief clerk and Member 
liaison; Tom Alexander, minority senior counsel; Dr. 
Christopher Bright, minority senior professional staff member; 
and Glenn Sanders, minority Defense fellow.
    Mr. Tierney. Good morning. I apologize for being just a 
touch late. I have to say, I had my jokes all prepared on 
General Barno. I was going to say how he was late. With all 
that logistical work that he had been doing over in Afghanistan 
and Pakistan, he couldn't get here on time. And you ended up 
being on time and I ended up being late. So much for that.
    I thank all of our witnesses for being here. I thank Mr. 
Flake as well. Before we get started, I do just want to mention 
that we have a particular guest with us here this morning. 
Representative Carolyn Maloney, who does an incredible amount 
of work on human rights particularly in this South Asia area of 
the world, has a guest in town and that is Dr. Samar. I just 
want to introduce her and thank her for her attendance. She is 
working hard to guarantee the equality for Afghan women 
throughout Afghanistan and doing quite a bit of work on that on 
the Afghanistan Independent Human Rights Commission. So thank 
you for your work and thank you for joining us here this 
morning.
    We have a quorum present so we are going to begin our 
hearing which is entitled, ``Troops, Diplomats, and Aid: 
Assessing Strategic Resources for Afghanistan.'' The meeting 
will come to order. And I ask unanimous consent that only the 
chairman and the ranking member of the subcommittee be allowed 
to make opening statements. Without objection, so ordered.
    And I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee may be allowed to submit a written statement for 
the record. Without objection, so ordered.
    This morning we are continuing what has been somewhat of a 
sustained oversight on this committee with regard to 
Afghanistan and Pakistan. We all understand that the challenges 
that we face in South Asia are breathtakingly complex. 
Oversight of U.S. programs, deployments, and spending requires 
an appreciation of the underlying ethnic tensions, historical 
grievances, and regional dynamics. The lines of conflict and 
the aspirations of the people have unique characteristics that 
call for serious consideration by U.S. policymakers charged 
with achieving U.S. national security interests.
    Problems this complex require that we use both a microscope 
and a telescope. As such, the subcommittee has spent 
significant time during this opening congressional work period 
to examine and investigate Afghanistan and Pakistan from a 
variety of different lenses. I know Mr. Kilcullen has noted 
that we don't have the usual 9 months that it takes for a 
President to transition into office and get his key people in 
place. Consequently, just as the President is moving quickly on 
this, Congress has to get itself in a position to react to 
whatever proposals the administration may make.
    Two weeks ago we held a public hearing featuring a panel of 
experts explaining the nature of the threats emanating from 
Afghanistan and Pakistan. Last week we followed up with a 
classified briefing conducted by the Office of the Director of 
National Intelligence. Next Tuesday we will hold a hearing 
entitled Afghanistan and Pakistan: Understanding and Engaging 
Regional Stakeholders that will explore those countries through 
the lens of geopolitics and regional tensions and 
opportunities.
    Today we turn our attention to the kind of footprint the 
United States should have in Afghanistan. How many troops, how 
many diplomats, how many aid workers do we need? These 
questions, all of which involve deployment of U.S. citizens to 
a war zone, weigh heavily on those of us with the 
responsibility of public service. But at their core, these 
questions should be preceded by one fundamental question: What 
are we trying to achieve in Afghanistan?
    We hold this hearing as the administration prepares to 
release its Afghanistan and Pakistan strategic review. Ranking 
Member Flake and I have been in communication with the 
administration to ensure that the subcommittee receives a full 
briefing once this review is finalized.
    While the particulars of the administration's strategic 
review are still being sorted out, we do know some things. For 
instance, President Obama has already authorized the deployment 
of an additional 17,000 troops to Afghanistan. The nature of 
any recommendations for increased deployments of military or 
civilian personnel beyond this remains a subject of great 
speculation and debate, although reports have leaked that 
President Obama is planning some kind of civilian surge as 
well. Other leaks indicate that the administration new plan 
will aim to significantly boost Afghan army and police forces 
and to expand covert warfare including air strikes in western 
Pakistan.
    Before we get too far ahead of ourselves, let us return for 
a moment to what is the most fundamental of questions. What do 
we seek to achieve in Afghanistan? One of our recent witnesses 
described that our effort in Afghanistan should be a counter-
sanctuary objective. I know some of our witnesses here today 
will address that. Under that approach, we would need to 
prevent Al Qaeda or like-minded international terrorists from 
establishing a safe haven from which they can plan and execute 
attacks against U.S. citizens at home or abroad. Putting aside 
the fact that Al Qaeda appears to have established a safe haven 
in western Pakistan, or has or could likely do so in any number 
of other places in the world, and that 9/11 was largely planned 
in Hamburg and Miami, it strikes me that a counter-sanctuary 
strategy differs greatly from a counter-insurgency strategy. 
Eliminating sanctuaries requires a fairly small military or 
covert footprint that is focused on disruption and containment. 
Counter-insurgency would require huge amounts of personnel and 
resources to ensure security and to support indigenous efforts 
to exert police power and extend social benefits to an 
ambivalent or resistant population.
    I have stated before that we find ourselves at an ideal 
moment for fundamental reevaluation of our goals in Afghanistan 
and our efforts to protect U.S. citizens from international 
terrorists. I do not seek to prejudge our witnesses or the 
administration's strategic review.
    However, I do think that with precious blood and scarce 
treasure at stake, it is incumbent on the administration to 
come forward with a compelling case for any U.S. commitments. 
And it is incumbent on those of us in the Congress to conduct 
thorough and thoughtful oversight and to ask tough questions. 
In the end, we use the microscope and the telescope to ensure 
that we do not use a machete where a scalpel will do.
    With that, I defer to my counterpart, Mr. Flake, for his 
opening remarks.
    Mr. Flake. Thank you, Mr. Chairman. Today's hearing is 
especially important and timely given what the administration 
is going through now with this review.
    As we all know, this conflict is in its 8th year. During 
that time we have seen progress and we have seen regress. In 
the wake of the 2001 invasion, we saw significant security 
gains. The Taliban network was largely disrupted. Al Qaeda fled 
to the hills. A short time later we saw Afghans actually elect 
a democratic government. But in a rather swift timeframe our 
military and diplomatic effort, which seemed to be paying off 
at that time, but since 2006, progress has deteriorated. Having 
visited in 2004 and again this past December, I can say that 
the contrast was stark.
    As I am sure our witnesses will describe, security has 
declined and the Taliban seems to be regrouping. This, of 
course, raises serious questions whether Al Qaeda will be 
resurgent as well. If the Taliban is, perhaps Al Qaeda is. With 
an estimated 1,400 NGO's operating in Afghanistan--and I found 
that number difficult to believe but I am told that is 
correct--some 1,400 NGO's operating, nearly 38,000 U.S. troops 
on the ground, and billions spent, we need to be getting it 
right. It is time for a fresh look.
    Since taking office, President Obama seems to have shifted 
policy in Afghanistan. On February 17th, he ordered 17,000 
additional troops. This will bring the number of U.S. troops to 
approximately 55,000, the largest number ever deployed in that 
country. After having ordered these troops into combat, 
however, the President will receive the results of a high level 
review of U.S. policy toward Afghanistan and Pakistan. It seems 
that following the decision to dispatch additional troops, the 
administration will determine what the policy should be. And as 
we mentioned in the last hearing, it seems a little backward to 
be planning to deploy troops before we have a strategy. But I 
hope that this hearing will shed some light on that.
    Today I think we are hearing from what is probably the most 
qualified group that has addressed this issue in a while. Dr. 
Kagan in particular just returned from 8 days, I know, in 
Afghanistan on the ground. With the encouragement and support 
of General David Petraeus, Dr. Kagan and the other experts in 
his party were able to travel widely and observe many aspects 
of ongoing operations. He has published a lengthy review of his 
findings and I look forward to hearing his testimony today. And 
that goes for all of the witnesses as well.
    As you mentioned, Mr. Chairman, we have contacted those in 
the administration and hope to be apprised as the details 
emerge on this new strategy. I look forward to this hearing and 
thank you for convening it.
    Mr. Tierney. Thank you very much. Again, I want to receive 
testimony now from the witnesses that are here. Mr. Flake makes 
an excellent point that all of you spent a considerable amount 
of time in theater. I think that sometimes the public doesn't 
really get that the people that we invite in to give us advice 
and counsel actually take very risky assignments over there for 
lengthy periods of time. You go places oftentimes where Members 
of Congress aren't able to go or don't have the time to really 
focus on and spend as much concerted effort there as you have 
done. So we appreciate the risks that you take and the efforts 
that you make.
    I am going to introduce the panel right across the board 
here, and then we will start going from my left to right.
    But first with us is Lieutenant General David W. Barno of 
the U.S. Army, retired. He is the Director of the Near East 
South Asia Center for Strategic Studies at the National Defense 
University. From 2003 to 2005, General Barno commanded over 
20,000 United States and Coalition forces in the Combined 
Forces Command-Afghanistan as part of Operation Enduring 
Freedom. General Barno holds a Bachelor of Science from the 
U.S. Military Academy at West Point and a Masters in National 
Security Studies from Georgetown University.
    Ambassador James Dobbins joins us again here. He is the 
Director of the International Security and Defense Policy 
Center at the RAND Corp. Ambassador Dobbins concluded his last 
stint of distinguished Government service as Special Envoy for 
Afghanistan and then as representative to the Afghan opposition 
following September 11, 2001. Ambassador Dobbins holds a B.S. 
in International Affairs from Georgetown University School of 
Foreign Service. He has testified previously before our 
subcommittee. We welcome you back.
    Dr. Frederick W. Kagan is a Resident Scholar at the 
American Enterprise Institute. He served as an Associate 
Professor of Military History at the U.S. Military Academy at 
West Point. He holds a Bachelor of Arts degree in Soviet and 
East European Studies and a Ph.D. in Russian and Soviet 
Military History from Yale University.
    Dr. David Kilcullen is a partner at the Crumpton Group, a 
strategic advisory firm based in Washington, DC. He has 
previously served as a Senior Counter-Insurgency Advisor to the 
Multinational Force-Iraq under the command of General Petraeus 
and as a Counter-Insurgency Advisor to then Secretary of State 
Condoleezza Rice. A native of Australia, Dr. Kilcullen holds a 
Ph.D. in Politics from the University of New South Wales.
    Again, I want to thank all of you for making yourselves 
available today and for sharing your substantial expertise. It 
is the policy of the subcommittee to swear you in before you 
testify so I ask you to please stand and raise your right 
hands. I don't think any of you have anybody else that is 
assisting in your testimony.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will reflect that all of 
the witnesses answered in the affirmative.
    I will just tell those of you, I think you all know that 
your full written statement will be put into the hearing 
record. Some of the statements are quite long. In fact, some 
have introduced a chapter in a book. I suspect we are not going 
to listen to the entire chapter on that. But we ask that you 
keep your remarks as close to 5 minutes as you can. We are as 
liberal as we can be on that because we want to hear what you 
have to say. Then we will move to questions and answers. 
General, if we could start with you, please?

STATEMENTS OF DAVID W. BARNO, LIEUTENANT GENERAL, RETIRED, U.S. 
 ARMY, AND DIRECTOR, NEAR EAST SOUTH ASIA CENTER FOR STRATEGIC 
STUDIES, NATIONAL DEFENSE UNIVERSITY; JAMES DOBBINS, DIRECTOR, 
  CENTER FOR INTERNATIONAL SECURITY AND DEFENSE POLICY, RAND 
 CORP.; FREDERICK W. KAGAN, PH.D., RESIDENT SCHOLAR, AMERICAN 
  ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH; AND DAVID 
KILCULLEN, PH.D., SENIOR NON-RESIDENT FELLOW, CENTER FOR A NEW 
         AMERICAN SECURITY, AND PARTNER, CRUMPTON GROUP

         STATEMENT OF LIEUTENANT GENERAL DAVID W. BARNO

    General Barno. Thank you, Chairman Tierney and Ranking 
Member Flake. Thank you for the invitation to offer my views 
today on looking at strategic options on the way ahead in 
Afghanistan and Pakistan.
    I continue to serve in the Defense Department in my current 
position, but my views that I will express today are my own 
personal outlooks. They are informed not only by my 19 months 
in Afghanistan from October 2003 to May 2005 as the overall 
U.S. commander but also from continued engagement and visits 
there including a 3-day trip in January of this year to 
Regional Command-South, Kandahar Province, Zabul Province, and 
Helmand Province. More importantly, my youngest son just 
returned from a 1-year tour in Afghanistan where he served as 
an Air Calvary scout helicopter platoon leader in 101 Airborne 
Division with 6 months in Regional Command-East in Jalalabad 
and six more months in and around Kandahar. So I appreciate 
this not only from the perspective of a former commander there 
but also now as the father of a soldier, as are so many fathers 
and mothers out there of our troops that are serving oversees. 
And I anticipate he will be returning to the theater sometime 
in the next year and a half or so.
    I will try and touch on some of my more extensive written 
comments in my observations up front here this morning. First 
and foremost, I would characterize a bit of diagnosis. I think, 
as I have looked at this over the last several years, in part 
in the aftermath of the transition to NATO which happened at 
the end of 2006, that the overall enterprise in Afghanistan in 
many ways has been drifting toward failure. I think the 
trajectory that we are on today--hopefully which will be 
changed dramatically by the President's planned announcement I 
believe tomorrow--the trajectory that we are on today is not a 
success trajectory. We have to make some substantial changes in 
our approach and the overall, you know, leadership, outlook, 
and organization perhaps in the effort to move us toward 
success.
    I think first we need to talk a bit about what are the 
goals in Afghanistan and, to the chairman's question, what are 
we trying to achieve in Afghanistan. I generally would 
characterize those as five key goals that I think are unchanged 
for the United States in many ways from our earliest days 
there. The first of those and the most important is that the 
Taliban and Al Qaeda are defeated in the region and denied 
usable sanctuary in that part of the world. The purpose of 
that, of course, is to prevent further attacks on the United 
States and our allies. Second, I think Pakistan has to be 
stabilized as a long term partner to the United States. It must 
be economically viable, friendly to our interests, no longer an 
active base for international terrorism, and in control of its 
territory and its nuclear weapons. Third, I think a stable and 
sustainable Afghan government has to exist that is legitimate 
in the eyes of the Afghan people, capable of exercising 
effective governance, and in control of its territory. Fourth, 
I think NATO must succeed. We have made a commitment that is 
irreversible at this point that the military mission is going 
to be led through the NATO alliance in Afghanistan. We cannot 
allow that to fail. And we must ensure that our objectives 
there are cast such that trans-Atlantic alliance is preserved 
and that U.S. leadership in that alliance helps us to deliver 
success. Finally, I think that we have to ensure the region is 
confident of American staying power and commitment as a long 
term partner, one that is not going to leave as we have done in 
the past but stays there and shares the challenges in front of 
our many friends in the region there.
    There are three basic first principles that I think we need 
to touch on to accomplish this as we look at perhaps some 
changes in our approach in the next several years. Some of 
these are well known but they tend to be absent in some cases 
when implemented. First is the Afghan people have to be the 
center of gravity of this effort. We have to focus, I think, 
our upcoming counter-insurgency efforts on securing the 
population, providing them the time and space to have economic 
and political growth, and ensuring that their day to day lives 
are viable and that they have hope for their future. Second, I 
think we need to focus on creating true unity of effort in the 
overall military and civil enterprise in Afghanistan. And that 
is not only between the military effort and the civil effort, 
but also even within the military effort where we have 41 
different troop contributing nations. In some cases we almost 
see 41 different approaches to the fight in Afghanistan. We 
have to meld that into a singular approach. I think U.S. 
leadership is key in doing that. Then finally, I think we have 
to take a simultaneous top-down from Kabul and bottom-up from 
provinces and districts approach to build success at the 
grassroots level. This is often led by our military units, 
especially in the southern half of the country which is the 
most dangerous portion, what I term the counter-insurgency 
zone. We have to build this from the bottom-up and the top-
down, not simply achieve greater success in Kabul.
    I think I will pause there and I will defer my comments on 
Pakistan until we get into the questions and answers. But 
Pakistan is obviously part of the problem and part of the 
solution. I don't accept the idea that we can't achieve 
progress in Afghanistan unless we achieve success in Pakistan. 
But the two of those nations are very clearly interrelated so 
we have to have an interrelated policy that addresses both, 
recognizing that they are individual nation-states. And I will 
again defer further comments until questions and answers. Thank 
you.
    [The prepared statement of Lieutenant General Barno 
follows:]

[GRAPHIC] [TIFF OMITTED] T1798.001

[GRAPHIC] [TIFF OMITTED] T1798.002

[GRAPHIC] [TIFF OMITTED] T1798.003

[GRAPHIC] [TIFF OMITTED] T1798.004

[GRAPHIC] [TIFF OMITTED] T1798.005

[GRAPHIC] [TIFF OMITTED] T1798.006

[GRAPHIC] [TIFF OMITTED] T1798.007

[GRAPHIC] [TIFF OMITTED] T1798.008

[GRAPHIC] [TIFF OMITTED] T1798.009

[GRAPHIC] [TIFF OMITTED] T1798.010

[GRAPHIC] [TIFF OMITTED] T1798.011

[GRAPHIC] [TIFF OMITTED] T1798.012

[GRAPHIC] [TIFF OMITTED] T1798.013

[GRAPHIC] [TIFF OMITTED] T1798.014

[GRAPHIC] [TIFF OMITTED] T1798.015

[GRAPHIC] [TIFF OMITTED] T1798.016

[GRAPHIC] [TIFF OMITTED] T1798.017

[GRAPHIC] [TIFF OMITTED] T1798.018

[GRAPHIC] [TIFF OMITTED] T1798.019

[GRAPHIC] [TIFF OMITTED] T1798.020

[GRAPHIC] [TIFF OMITTED] T1798.021

[GRAPHIC] [TIFF OMITTED] T1798.022

[GRAPHIC] [TIFF OMITTED] T1798.023

[GRAPHIC] [TIFF OMITTED] T1798.024

[GRAPHIC] [TIFF OMITTED] T1798.025

[GRAPHIC] [TIFF OMITTED] T1798.026

[GRAPHIC] [TIFF OMITTED] T1798.027

[GRAPHIC] [TIFF OMITTED] T1798.028

[GRAPHIC] [TIFF OMITTED] T1798.029

[GRAPHIC] [TIFF OMITTED] T1798.030

    Mr. Tierney. Thank you very much, General. Ambassador.

                   STATEMENT OF JAMES DOBBINS

    Mr. Dobbins. Thank you, Mr. Chairman, for inviting me back. 
You know, it was only 2 years ago that Iraq was hopeless and 
Afghanistan was the good war. Today, Iraq is the success and 
Afghanistan is the quagmire. I think it is worth reflecting on 
this. What it demonstrates is that dramatic change is possible 
and that turnarounds are possible. I think what we have to 
focus on is how we can turn around the situation in 
Afghanistan.
    Now, there are reasons to be cautious. Afghanistan is 
larger and more populous than Iraq. It is more isolated and 
inaccessible. It is far poorer and less developed. And it has 
been in civil war for 30 years.
    Yet we still have advantages in Afghanistan that we lacked 
in Iraq. First of all, the American presence in Afghanistan 
remains more popular than it ever has been in Iraq. Second, 
Karzai retains more popularity as a leader in Afghanistan than 
any Iraqi leader has yet been able to secure. Third, we have 
far more international support for our efforts in Afghanistan 
than we ever have in Iraq. Fourth, levels of violence have 
remained much lower in Afghanistan than they were or indeed 
still are in Iraq. That is right. The levels of violence in 
Afghanistan are still somewhat lower than they are in Iraq. 
Fifth, Afghanistan's neighbors and near neighbors, with the 
partial exception of Pakistan, helped form the Karzai 
government, fully accept its legitimacy, and wish to see it 
succeed. Finally, sectarian animosities in Afghanistan are less 
intense than in Iraq.
    Now, these conditions are changing and for the most part 
they are changing for the worse. Afghans are becoming 
increasingly critical of our presence. President Karzai is 
losing domestic and international support. Violence is 
increasing and civilian casualties are climbing, threatening to 
generate new refugee flows and exacerbate tensions among ethnic 
groups. Thus the shift in attention from Iraq to Afghanistan 
has come none too soon.
    In my written testimony I have suggested eight different 
tacks that we should be taking, some of which I think the 
administration either has or is about to embrace. I will only 
name them here and be happy to go into greater detail in 
response to questions. First of all, I think we need to unify 
the NATO and American command chains. At the moment, General 
Petraeus is in command of only about half of the forces in 
Afghanistan. If we expect Holbrooke and Petraeus to pull off in 
Afghanistan what Petraeus and Crocker pulled off in Iraq, I 
think we have to make sure that the military side of our effort 
and the Allied effort is under his control. Second, I think we 
need to do the same on the civilian side. Congressman Flake 
noted that we have 1,400--or was it 14,000, I can't quite 
remember--NGO's. That is just symptomatic of the effort that is 
needed to coordinate the civilian effort. Third, we need to 
bolster both the civilian as well as the American military 
presence in Afghanistan. I do think that is underway. Fourth, 
we need to institute a bottom-up component to our counter-
insurgency strategy to complement the top-down approach we have 
followed to date. This involves empowering local Afghans to 
help defend themselves. It also involves trying to do what we 
did in Anbar with the Sunnis, that is to co-opt at least some 
components of the insurgency and put them on our payroll 
instead of the Taliban's. Fifth, we have to pay more attention 
to Afghan insurgent activities in the Pakistani province of 
Balochistan as well as the attention we are already paying to 
their activities in the North-West Frontier Province. Sixth, we 
need to support the upcoming Afghan elections while remaining 
scrupulously neutral among the possible candidates. That means 
neither supporting Karzai nor criticizing him to the point 
where it looks like we are actually opposing his candidacy. 
Seventh, we need to intensify our engagement with Afghanistan's 
neighbors. Eighth, we need make stabilizing and pacifying 
Pakistan a global priority, not just an American priority.
    President Obama and other administration officials have 
stated that the United States should scale back its objectives 
in Afghanistan. If this means matching our rhetoric to our 
resource commitments, I am all for it. If it means allowing 
Afghanistan's downward spiral into civil war to continue, I am 
not. It is possible that a more modest statement of American 
objectives in Afghanistan, one focused on ensuring that the 
country does not again become a sanctuary for international 
terrorists, can help in coopting some of the insurgents who may 
be willing to break their ties with Al Qaeda. Such an effort 
has to be approached very carefully, however, let it open new 
fissures in the country even as others are healed. If 
Afghanistan's Tajik, Uzbek, and Hazara populations--backed as 
they will be by Russia, India, and Iranian patrons--conclude 
that the United States is reducing its support for the national 
government in Kabul in order to accommodate Pakistani-backed 
Pashtun insurgents, then we are likely to see a resumption of 
the large scale civil war along a north/south divide which 
racked Afghanistan throughout the 1990's and led to Al Qaeda's 
introduction in the first place. American commanders may have 
local opportunities to bring insurgent elements over to our 
side and they should be encouraged to do so. But any effort to 
engage the insurgent leadership at a national level needs to be 
conducted by the government in Kabul with the support of the 
larger international community if this effort is not to tear 
the country apart.
    How then should we describe America's purpose in 
Afghanistan? Our job is neither to defeat the Taliban nor to 
determine the future shape of Afghan society. While free 
elections, rule of law, capacity building, counter-narcotics, 
and economic development may not be our objectives, they are 
important components of a strategy designed to protect the 
population and win its support. The American purpose should be 
to reverse the currently negative security trends and ensure 
that fewer Afghans are killed next year than this year. In any 
counter-insurgency campaign, this is the difference between 
winning or losing. If more Afghans are killed in 2010 than 
2009, we will be losing. If less are getting killed, we will be 
winning. That is how we will know. If as a result of our 
efforts the current rise in violence is reversed and the 
populous made more secure, the Afghan people will be able to 
determine their own future through peaceful rather than violent 
competition of ideas, people, and political factions. This has 
already begun to happen in Iraq. Our objective should be to 
give the Afghans the same chance.
    [The prepared statement of Mr. Dobbins follows:]

    [GRAPHIC] [TIFF OMITTED] T1798.031
    
    [GRAPHIC] [TIFF OMITTED] T1798.032
    
    [GRAPHIC] [TIFF OMITTED] T1798.033
    
    [GRAPHIC] [TIFF OMITTED] T1798.034
    
    [GRAPHIC] [TIFF OMITTED] T1798.035
    
    [GRAPHIC] [TIFF OMITTED] T1798.036
    
    [GRAPHIC] [TIFF OMITTED] T1798.037
    
    [GRAPHIC] [TIFF OMITTED] T1798.038
    
    [GRAPHIC] [TIFF OMITTED] T1798.039
    
    [GRAPHIC] [TIFF OMITTED] T1798.040
    
    [GRAPHIC] [TIFF OMITTED] T1798.041
    
    [GRAPHIC] [TIFF OMITTED] T1798.042
    
    Mr. Tierney. Thank you, Ambassador. Dr. Kagan.

                STATEMENT OF FREDERICK W. KAGAN

    Mr. Kagan. Thank you, Mr. Chairman and thank you, Mr. 
Flake, for inviting me to participate in this hearing on this 
outstanding panel where I suspect we will find not a tremendous 
amount of disagreement.
    Mr. Tierney. That is too bad because we really thought we 
were going to get a lot of disagreement. But in other words, it 
might not be too bad after all.
    Mr. Kagan. Well, it is a little hard because I think if you 
look at this problem, there are elements of it that are 
incredibly complicated and there are elements of it that are 
fairly straightforward. If the problem were simply preventing 
Al Qaeda from reestablishing safe havens in Afghanistan--and I 
don't think it is--and if it were the case that it was possible 
to do that with some sort of counter-terrorism approach that 
relied primarily on Special Forces and long range missile 
strikes--which I don't believe is the case--then we could 
actually have a discussion, I think, about alternatives. But 
unfortunately the problem in Afghanistan is much greater than 
that. It is more significant than that. Also, unfortunately, I 
am not really aware of a case in the last 10 years when the 
pure counter-terrorism approach has worked. So I don't find 
that to be an appealing intellectual alternative to try to 
pursue because it has been tried on a number of occasions and 
it has failed. Al Qaeda is not actually susceptible to that 
sort of defeat, in my view.
    But stepping back from it, I think it absolutely right to 
ask the questions, why are we in Afghanistan and what are we 
trying to achieve? I would submit that the reason we are in 
Afghanistan is because of the extremely important geopolitical 
role that Afghanistan actually plays in an area that 
encompasses a billion and a half people with a lot of nuclear 
weapons. The key point here is that what you are seeing in 
Afghanistan, among other things, is a great game being played 
out between India, Pakistan, Russia, Iran, China, and now us 
for regional objectives.
    We know well that the Pakistanis are supporting elements of 
the enemy groups--both the Quetta shura Taliban and the Haqqani 
network--which are, I think, the greatest threat to stability 
in Afghanistan. They are doing that for a variety of reasons 
but largely because it is a part of the competition with India. 
And I don't think that they will stop doing that unless it is 
made clear to them that those groups will not succeed and that 
there will, in fact, be a stable Afghan state backed by the 
West, not just the United States but backed by the West, that 
will make impossible the success of the proxies that the 
Pakistanis are preferring. And I think it is important to 
phrase it in that way because I think that unfortunately it is 
not just the case that the Pakistanis are acting defensively 
here out of fear that we will leave, although they are doing 
that. Even if we were not going to leave, even if they knew 
that we were not going to leave, the Pakistanis will still be 
concerned about the degree of Indian influence in Afghanistan, 
which will be significant. Indian companies invest in 
Afghanistan. India has an embassy there which was, not 
coincidentally, attacked some time ago. This is not something 
that would easily go away. The Pakistanis have to be convinced 
not just that there will be a government that they are happy 
with in Kabul but that their preferred proxies will lose. This 
is an incredibly important thing for Pakistan. And that is one 
of the things that I want to emphasize here.
    We have gotten into the habit because we have forces 
fighting and dying in Afghanistan of thinking about Pakistan as 
the country that we need to help us in Afghanistan. The problem 
is that has it reversed. The truth of the matter is that 
Pakistan is more important to us strategically than 
Afghanistan. It is a country of 173 million people and 100 
nuclear weapons. And it is host to at least four major 
terrorist organizations, two of which are focused on 
destabilizing Pakistan, one of which is focused on 
destabilizing the entire region, and one of which is focused on 
destabilizing the entire world. Now the question is, how can we 
best influence what goes on in Pakistan? How can we best 
understand what these groups are trying to do? And how can we 
best try to address the problem?
    Right now we have the advantage of being in contact with 
the rear areas of all four of those groups in Afghanistan. When 
I was east of the Kunar River a short walk--for an Afghan, not 
for me--away from the Pakistani border, it was very apparent 
that the degree of visibility that we have on groups like the 
TNSM, like Baitullah Mehsud's Pakistani Taliban, like the 
Lashkar-e-Taiba, and like Al Qaeda from Afghanistan is 
something that is irreplaceable. And if we were to withdraw 
prematurely from Afghanistan, if we were to abandon our efforts 
there, not only would those groups flourish but we would lose 
an ability to understand what they are doing, to influence 
their behavior, and to influence also Pakistani behavior toward 
them.
    That is why I think it is time for us to stop focusing so 
much on the region as it can help us in Afghanistan. We need to 
understand also the upside benefits of getting it right in 
Afghanistan, which include helping generate leverage vis-a-vis 
Pakistan in a variety of ways, helping us to get the Pakistanis 
to focus on their own internal issues--which we have to be very 
concerned about--and also keeping us in close contact with 
enemy groups that are a real threat to global stability in a 
very fundamental way.
    Last, I just want to say, and I know that the committee is 
aware of this but I am not sure that the American people are, 
the situation in Afghanistan right now is nowhere near as bad 
as the situation in Iraq was at the end of 2006. Just to put a 
number on the table, the height of attacks in Afghanistan is 
less than a quarter of the height of attacks that we saw in 
Iraq. I was in Iraq in May 2007 at pretty much at the peak. 
Dave Kilcullen was there in much more dangerous positions than 
I for much longer in that period. And we both know, he more 
than I, what that kind of violence looks like in a society. 
That is not going on in Afghanistan right now. And I think that 
if we pursue a sound policy and resource it appropriately, 
there is no reason why that should happen in Afghanistan. Thank 
you.
    [The prepared statement of Mr. Kagan and the report from 
Newsweek follow:]

[GRAPHIC] [TIFF OMITTED] T1798.043

[GRAPHIC] [TIFF OMITTED] T1798.044

[GRAPHIC] [TIFF OMITTED] T1798.045

[GRAPHIC] [TIFF OMITTED] T1798.046

[GRAPHIC] [TIFF OMITTED] T1798.047

    Mr. Tierney. Thank you very much. Dr. Kilcullen.

                  STATEMENT OF DAVID KILCULLEN

    Mr. Kilcullen. Thank you. We have four basic problems in 
Afghanistan. I thought I would just talk about them quickly and 
then directly address your issue about counter-sanctuary versus 
counter-insurgency.
    I think that there are four key things. First, we failed to 
effectively protect the Afghan population. We haven't made them 
feel safe. That is especially true in the Pashtun parts of the 
country which is basically the bottom half, the southern half 
of Afghanistan. Second, we failed to deliver the rule of law 
and effective governance to the Afghan people. That is 
something that has happened across most of the country. When I 
say we, here, I am not just talking about the United States. I 
am talking about the whole international community as the 
Afghan government because we all have responsibility in that.
    The third problem is we failed to deal effectively with the 
active sanctuary for the Taliban in Pakistan. I want to echo 
what Fred Kagan just said about those points. Finally, we 
failed to organize resources or structure ourselves to do any 
of those three things. So we are not securing the people, we 
are not delivering governance, we are not dealing with the 
Pakistan problem, and we are not structured or organized to do 
any of those things.
    So there is a requirement to reorganize the effort and 
there is a requirement to resource it adequately. But we also 
have to look at what is our strategy? What are we trying to do 
here and is it effectively delivering on those three 
requirements that I first talked about?
    You put up the dichotomy between counter-sanctuary and 
counter-insurgency. That is exactly the debate that I think has 
been happening in Washington for the last couple of weeks, so 
it is an accurate reflection of the issue. I would characterize 
what some people have called counter-terrorism plus as the idea 
that we just want to deny an Al Qaeda sanctuary in Afghanistan 
or Pakistan and that what we need to is essentially be able to 
strike and disrupt terrorist targets that emerge in that 
region. There are a couple of problems with that. I think that 
it is kind of a false dichotomy because you actually cannot do 
counter-terrorism without also doing a fairly substantial 
amount of counter-insurgency.
    I hope you will bear with me but I used to do this stuff 
for a living so I want to explain to you what happens when an 
intelligence asset is working with a Special Forces asset to 
target a terrorist. Your intelligence asset has to have eyes on 
the terrorist target and it has to know where the target will 
be, not now, but in flight time plus preparation time plus 
approval time for the strike asset. So if I am the intelligence 
asset and my strike asset is a Special Forces unit, if the 
Special Forces unit is close by, if it is a 10 minute flight 
away and it takes half an hour to get ready and it takes 5 
minutes to get approval, then I have to know where the 
terrorist target is going to be in 45 minutes time from now. 
That is hard but it is possible. If my strike asset is a naval 
ship in the Indian Ocean and my strike method is cruise 
missiles and it takes me eight to twelve hours to get approval 
out of Washington, then I need to know not where the target is 
going to be in 45 minutes but where it is going to be tonight. 
That is almost always impossible. That is why we didn't get 
Osama Bin Laden during the 1990's. That was the setup. We had 
intelligence assets on the ground, approval from Washington, 
and our strike assets were in the Indian Ocean.
    So that means that if you are going to do effective 
counter-terrorism, you have to have bases close to the target. 
And let us say the strike asset that you are talking about is a 
Special Forces unit of 50 people. That means that you have to 
have those guys on a base and you have to protect them 
effectively, which is probably going to take about a 
battalion--about 600 people--and you will need to have lines of 
communication, logistics units, and all sorts of support assets 
like helicopters and airfields and so on to make that work. And 
that means that you need to have a relationship with the local 
population because if you are going to have a base in someone's 
area, you have to have some kind of relationship with them 
where they are willing to give you the information to find the 
enemy and so you don't have to continually defend the base 
against attack. And that means that you have to deliver to the 
population some kind of quid pro quo. Most fundamentally, you 
have to protect them against terrorist retaliation for them 
tolerating your presence or helping you. But you also have to 
help them with governance, development, rule of law, and a 
certain variety of other things in order to just function in 
the environment.
    So what all of that long-winded explanation means is that 
it turns out that if you are going to do counter-terrorism 
effectively, you need bases in Afghanistan. If you are going to 
have bases in Afghanistan, you have to do a certain minimum 
amount of counter-insurgency for those bases to be viable. And 
it turns out that minimum level is quite high.
    The logic that I have just gone through is exactly the 
logic that the United States used in establishing air bases in 
Vietnam in 1965. We wanted to strike the North Vietnamese using 
aircraft. We needed to protect the aircraft. We needed to 
secure the areas around the bases. And we found ourselves 
dragged in gradually to a much larger commitment than was 
initially envisioned.
    So the reason I am laying this out for you is to say we can 
pretend that we are doing counter-sanctuary. We will actually 
be doing counter-insurgency. And I think it is better that we 
don't pretend, that we think up front about what the 
requirements are likely to be.
    The final point would be to say that the numbers of troops 
deployed, the numbers of diplomats that you put in the field 
and the aid spent--how many dollars you are spending--the 
overall raw number of those figures is actually less important 
than the effectiveness of their delivery on the ground. Right 
now some aid agencies that are working in Afghanistan are 
spending 80 percent in overhead and only 20 percent of their 
effort is actually reaching the Afghan population. Similarly we 
have some allies who are sitting on forward operating bases and 
extremely rarely are they getting out and dealing with the 
population. An Afghan provincial Governor said to me, look, you 
have enough troops to secure my province, you just have to get 
off the FOB, the forward operating base. Another meeting that I 
was in was between an European ally and an Afghan provincial 
Governor. The Allied commander said, you know, we are not sure 
that you guys are ready to take control of the province if we 
leave. The Afghan Governor laughed in his face and said, if you 
left tomorrow the only difference it would make would be that 
we would inherit your base. You don't actually get out of your 
base and do anything. So it is not just how many troops we 
have, it is what those troops do. They have to focus on 
securing the population. That means close interaction with 
people and delivering effective governance, rule of law, human 
rights, all those sorts of things that we need to deliver so 
that we can deal with the terrorist threat.
    So I will stop there and perhaps put forward to questions 
and answers.
    [The prepared statement of Mr. Kilcullen and the report 
from the New Yorker follow:]

[GRAPHIC] [TIFF OMITTED] T1798.048

[GRAPHIC] [TIFF OMITTED] T1798.049

[GRAPHIC] [TIFF OMITTED] T1798.050

[GRAPHIC] [TIFF OMITTED] T1798.051

[GRAPHIC] [TIFF OMITTED] T1798.052

[GRAPHIC] [TIFF OMITTED] T1798.053

[GRAPHIC] [TIFF OMITTED] T1798.054

[GRAPHIC] [TIFF OMITTED] T1798.055

[GRAPHIC] [TIFF OMITTED] T1798.056

[GRAPHIC] [TIFF OMITTED] T1798.057

[GRAPHIC] [TIFF OMITTED] T1798.058

[GRAPHIC] [TIFF OMITTED] T1798.059

[GRAPHIC] [TIFF OMITTED] T1798.060

[GRAPHIC] [TIFF OMITTED] T1798.061

[GRAPHIC] [TIFF OMITTED] T1798.062

[GRAPHIC] [TIFF OMITTED] T1798.063

[GRAPHIC] [TIFF OMITTED] T1798.064

[GRAPHIC] [TIFF OMITTED] T1798.065

[GRAPHIC] [TIFF OMITTED] T1798.066

[GRAPHIC] [TIFF OMITTED] T1798.067

[GRAPHIC] [TIFF OMITTED] T1798.068

[GRAPHIC] [TIFF OMITTED] T1798.069

[GRAPHIC] [TIFF OMITTED] T1798.070

[GRAPHIC] [TIFF OMITTED] T1798.071

[GRAPHIC] [TIFF OMITTED] T1798.072

[GRAPHIC] [TIFF OMITTED] T1798.073

    Mr. Tierney. Thank you, Doctor. Thank all of you for your 
enlightening testimony. On that, we are going to go into our 
question period here which you are all familiar with. 
Unfortunately, we are still stuck in this 5 minute rule but we 
will try to relax it as much as we can. And I don't mind if any 
of my colleagues have a followup question they want to 
interrupt me with on this so we get a subject matter all the 
way out.
    First of all, you started where we ended with the need to 
have cooperation amongst our allies. On these bases we visit at 
various times different PRTs and they are operated differently. 
You know, wherever you go there are some that never get off the 
base. I won't mention any countries but, you know, some have 
wine for lunch. You know, they are in there for a 5-month 
turnaround period, they hang around, and the locals say they 
never get off the base and that as soon as they came into the 
rotation and the other people left, the insurgents came back. 
Then you have other people who come in and they say this other 
group came in and they were very effective in protecting us.
    Are we going to be able to exert the kind of leadership 
that the United States historically has had with NATO and other 
international efforts or are the relationships so poisoned that 
is going to interfere with our ability to do that? And if that 
is the case, how successful can we be?
    Mr. Kagan. Well, the short answer is that the 
relationships, I think, are not so poisoned that this cannot be 
dealt with. One of the things that I found very cheering on 
this last trip on my visit to RC-South was the staff down there 
where you have a Dutch commander and a British deputy and an 
American deputy and a hodgepodge staff like that. I think there 
is an understanding in that area that we have to coordinate our 
efforts better and we have to make this work. And I think that 
plans to bring in a British Division headquarters down there 
will make that easier.
    We should remember that we do have allies who are willing 
to get off the bases and who are willing to go fight very hard, 
particularly in RC-South but also in RC-East. The French fight 
very hard without caveats in RC-East. The Poles fight very hard 
without any caveats in RC-East. And I think that progress can 
be made in RC-South where the biggest fight is. So I think the 
relationships are not poisoned to the extent that this is not 
fixable.
    I think, however, that the command relationships in the 
theater are such that this is very difficult. I want to 
highlight a point that I think all of us are concerned about, 
that the absence of a three star American headquarters in 
Afghanistan parallel to the position that Lieutenant General 
Odierno held in Iraq under General Petraeus during the Surge is 
a major problem. It puts a tremendous amount of burden on 
General McKiernan to not only do all of the political 
coordination with 41 different nations and 1,400 NGO's but also 
to do all of the military coordination among all of the 
different units that are going on with an inadequate staff and 
with no subordinate operational commander. I think that is one 
of the biggest problems that we have had in coordinating this 
effort, frankly. And I think that is something that really 
needs to be addressed as a matter of priority as we think about 
changing our strategy and fixing this problem.
    Mr. Tierney. Thank you. Well, to use General McNeil's 
favorite term--kinetic--there are a lot of populations of some 
of our allies who are sending a clear message politically to 
their leadership that they don't want their forces getting 
involved kinetically on this. General, what do you think about 
the prospects of changing that local atmosphere to enable some 
of these governments politically to change the relationship 
there?
    General Barno. I think the structure we have in Afghanistan 
today is basically split between north and south. The northern 
part of Afghanistan--and you could draw a line right across the 
country, an equator, if you will--north of the equator is what 
I would characterize as the stability zone or the peacekeeping 
zone. The NATO countries that have selected to go there have 
done so very deliberately because their populations, and in 
many cases their governments, are only willing to have their 
forces in Afghanistan to do peacekeeping.
    I was at the Munich Security Conference in February and I 
picked up one of the Conference newspapers. There was an 
article written by the German Defense Minister. The title of 
the article, and it had a picture of German troops in 
Afghanistan, the title of the article was Bundeswehr: A 
Peacekeeping Force, Bundeswehr being the German military. But 
that would have been unthinkable 10, 15, 20 years ago. That was 
not what the Bundeswehr was. But then European militaries in 
many cases, not in all cases, but in a number of cases have 
moved into a political world where their support is only 
contingent on the type of missions they do and the only 
justification is peacekeeping in the view of their populations.
    So if you are in the north, I don't think your population 
or your government are going to change and suddenly drop your 
caveats and be willing to fight in the south. If you are in the 
south, and as Fred points out we have a number of very capable 
allies down there with us in the south, they are going to 
continue to support that. But they are on a timeline as well. 
They are very concerned, from what I heard at Munich, about the 
popular will of their nations to continue this fight. So I 
think the United States is going to have to continue, and 
really I hope the new strategy that comes out will really 
highlight reasserted American leadership in Afghanistan. This 
will not work without us being behind the steering wheel--with 
our friends and allies there--but we are going to have to be 
behind the steering wheel. And we in some ways have not been 
for the last couple of years.
    Mr. Tierney. Do you want to say anything, Doctor?
    Mr. Kilcullen. Yes, just a quick comment. I think that we 
have spent a lot of time in the last 2 or 3 years, certainly I 
did when I was working for Secretary Rice, trying to convince 
the Europeans to fight in Afghanistan. I think we have a better 
chance of doing that now that there is a much more receptive 
attitude to the United States in European capitals than there 
was even 6 months ago. But I think ultimately we are not going 
to get very far by asking the Europeans to do something that is 
politically impossible for them. We should be focusing on 
things that they are willing to do which would include 
governance assets and aid dollars, but also police. The 
Europeans have a very substantial, about 5,000 person 
organization that does stability policing, kind of gendarmarie, 
carabinieri kind of capability. I expect that to be discussed 
in Strasbourg next week.
    And more police effort would be an extremely important way 
of shifting the effort away from chasing the bad guys toward 
protecting the population and displacing the Taliban from their 
current de facto role of law and order in the south of the 
country. So I think the allies are very important. We should be 
focusing them on police, aid, governance. And hey, if they can 
give us more military assets that is great, but I don't think 
it is particularly likely prospect.
    Mr. Tierney. Ambassador, with Mr. Flake's indulgence, we 
will let you weigh in.
    Mr. Dobbins. Just briefly, I made a couple of suggestions 
in my written testimony designed to address the difficulty of 
coordination. One would be to create a multinationally staffed 
office in Kabul, the function of which would be to coordinate, 
standardize, resource, and support the two dozen PRTs in the 
country, over half of which are not American. They need a 
coordinating mechanism. NATO can't do it because NATO doesn't 
do economic affairs. The U.N. isn't going to do it because it 
is essentially a mixed military/civilian mission. So it will 
have to be ad hoc, something special. We created these kinds of 
institutions in Bosnia. We can create one that can funnel 
resources and standardize their approaches to the extent that 
is possible.
    The second, and I mentioned this in my earlier testimony, 
would be to create a major NATO command in Tampa to give 
Petraeus a major NATO command and to make him responsible to 
the North Atlantic Council as well as to the President of the 
United States. Thus McKiernan would come under one command 
chain rather than the two command chains that he currently 
comes under.
    Mr. Tierney. Thank you. Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman. Thank all of you. This 
was very enlightening. I heard some things that I hadn't 
thought of before at all. The first one was Dr. Kagan mentioned 
the influence, or the worry from Pakistan about the influence 
of India in Afghanistan. How do we address that? Is there a way 
for the United States to address that, to mitigate fears that 
the Pakistanis may have about Indian influence?
    Mr. Kagan. With the caveat that I am not a South Asia 
specialist and certainly not an India specialist, I think the 
short answer is no. I think that, you know, we have to keep in 
mind that Pakistan as a state and the Pakistani military in 
particular are defined by the threat from India and opposition 
to India. And I think that it is a multigenerational task to 
wean Pakistani leadership away from that sense. I think that we 
can certainly make efforts and we should certainly make 
efforts. People have spoken about a regional security 
architecture, trying to find ways of having the Indians and the 
Pakistanis reassure each other. But I am skeptical about any 
short term benefit from that. So that is why I think the key is 
to demonstrate to the Pakistanis first and foremost that the 
current strategy they are using--that is, destabilizing 
Afghanistan against our interests--will fail, not that it is 
not desirable necessarily from their standpoint but, that it 
simply is impossible.
    Mr. Flake. Thank you. Ambassador Dobbins, I liked what you 
said about coordination of the PRTs. I think those of us who 
have visited Afghanistan and have seen and met with some of the 
individuals involved or have been briefed by them here 
recognize that there is very little coordination even among our 
own, let alone among the other nationalities that are there. 
There seems to be very little sharing of best practices among 
them and very little coordination. So it seems to me that we 
are wasting a lot of resources. So your idea of having some 
kind of coordinating arm seems to make a lot of sense to me.
    With regard to the counter-sanctuary, Dr. Kilcullen, you 
mentioned that is kind of what we did or tried to do in Vietnam 
for a while. What other examples are there of this strategy 
being employed? And are there any successful examples? Anybody, 
General if you want to chime in or anybody else? Are there 
successful examples of that strategy being employed?
    Mr. Kilcullen. It depends upon how you define success. But 
I would characterize our approach to Somalia as one of 
basically counter-sanctuary, also right now and at various 
other times in the past, actually, in relation to the Horn of 
Africa. The problem with the counter-sanctuary approach is that 
one of two things happens. Either you end up focusing solely on 
killing the terrorists and forgetting about the stability of 
the general region where you are working, and ultimately the 
problem gets bigger, or you get dragged into stabilization 
operations as we did in Somalia in 1992 and as we did in 
Vietnam in 1965, that are designed to support strike or support 
counter-sanctuary. And they kind of drag you in which means 
that you don't think ahead to what the resources are likely to 
be that are required. So I am not aware of any successful 
examples long term of a pure counter-sanctuary approach. But we 
have tried it in various places. In fact it is a preference 
that most Western democratic powers have because we like to 
avoid commitments of heavy troop numbers on the ground. It is 
not exactly counter-sanctuary but one of the things that we did 
in Bosnia in the early part of the fighting in the Balkans was 
designed almost like counter-sanctuary, just to contain the 
problem and prevent it from spilling over and not ultimately 
deal with the main causes of it. Of course, that failed and we 
had to engage much more heavily in order to deal with the 
problem. You could also characterize what we did in 2005 and 
2006 in Iraq as an attempt to walk back to a counter-sanctuary 
approach. Again, that dramatically failed and we had to get in 
and take control of the environment.
    Mr. Flake. General, do you have any thoughts on that?
    General Barno. Very briefly, I think in effect what 
Pakistan is doing today in their tribal areas is a failing 
counter-sanctuary strategy. Because they are not able to or 
they have chosen not to have a population centered counter-
insurgency strategy, they are operating simply with strike 
operations out there. The effect is that the terrain is still 
not inhospitable and the population is not inhospitable to the 
terrorists because, you know, the terrorists occupy that 
terrain far more than the Pakistani military and security 
forces do. So it is a very, very difficult strategy to be able 
to execute successfully. I think that most if not all of us 
would agree that there is a place within your counter-
insurgency strategy for a counter-terrorism pillar or counter-
sanctuary pillar, but counter-sanctuary in and of itself most 
of us I think would say can't be a successful strategy, at 
least in the circumstances we have today out there.
    Mr. Kagan. May I comment?
    Mr. Flake. OK, go ahead.
    Mr. Kagan. Thank you. I think just to put a very fine point 
on this, we killed many, many senior Al Qaeda leaders in Iraq, 
including Abu Musab al-Zarqawi in 2006, and we discovered that 
the insurgency or the terrorist groups are able to replace 
their leadership faster than we can kill them in many 
circumstances. I have heard similar quotes from guys involved 
in the counter-terrorism effort in Afghanistan. They are 
saying, hey, we have killed 22 HVTs and, you know, they just 
bring new ones.
    I am not aware of any case where this has worked. We have 
tried it at levels ranging from no U.S. troop presence 
including, as Dave Kilcullen pointed out, the 1990's in 
Afghanistan and recently in Somalia where it doesn't seem to be 
working--and it certainly didn't work in Afghanistan--to high 
U.S. troop presence surrounding bases with a lot of Special 
Forces guys going around and actually killing a lot of leaders 
as in Iraq and as the Pakistanis have done in their tribal 
areas. It has failed there, too. So I think that it really is 
time to say that we have tested this method and that there is a 
lot of empirical evidence to think that it will fail.
    Mr. Flake. I will wait for the second round for some more. 
Thank you.
    Mr. Tierney. Thank you. Mr. Driehaus, you are recognized 
for 5 minutes.
    Mr. Driehaus. Thank you very much, Mr. Chairman. And thank 
you gentlemen so much for coming here today. I think you have 
appropriately explored the complexities of the situation in 
Afghanistan. I had the opportunity to visit Afghanistan a few 
weeks ago for the first time and as a former Peace Corps 
volunteer who has spent many years in sub-Saharan Africa, I was 
profoundly impacted by the poverty that exists in Afghanistan 
as well as the complexity of the long term economic 
sustainability of the country. That is really what I would like 
to get at.
    I believe that a surge in troops can, in fact, provide 
temporary security for the Afghan populations. However, I am 
very concerned about the long term sustainability of our 
efforts. I would like to approach it from two different angles, 
really: the economic development sustainability over the long 
term and also the rule of law.
    I was saddened to learn of almost a complete breakdown in 
the rule of law. And it doesn't seem to me that our efforts are 
very sustainable over the long term without establishing 
significant rule of law. Now, that doesn't necessarily have to 
be centralized. It could be a decentralized structure similar 
to what they have in Botswana where there is a traditional 
structure that mirrors a centralized structure.
    But when I looked at the PRTs, there didn't seem to be a 
lot of consistency with regard to the PRTs. And there is the 
ability or the temptation, perhaps, for a great deal of 
corruption when it comes to the PRTs dealing with the local 
population. When I heard stories of literally bags of cash 
being used in development efforts, little alarm bells were 
going off all over.
    So I guess what I am asking is what do you suggest when you 
look at the PRTs and you look at the economic sustainability of 
some of these efforts? What steps do you think have to be taken 
in order to lead us down a path where the funding is being 
accounted for with the appropriate mix between military and NGO 
and AID resources? What do you believe is necessary for long 
term sustainability on the economic side?
    Mr. Kilcullen. I might pick up the rule of law piece if 
that is all right, sir.
    Mr. Driehaus. That is fine, we will start with that one.
    Mr. Kilcullen. Right now in Afghanistan, the Taliban are 
running 13 sharia law courts across the south of the country. 
When you hear the term sharia law court you think of women 
getting stoned for adultery and hands getting cutoff and so on. 
That does happen, but actually about 95 percent of the work 
that these courts are involved in is what we would call civil 
or commercial law. They issue i.d. cards; they issue title 
deeds to land; they sort out disputes relating to water, 
grazing rights, properties; they do divorce law. They are 
essentially delivering the rule of law, mediation, and dispute 
resolution at the local level to villages, districts, and 
tribal groups.
    This has been a very important source of their control 
because in a counter-insurgency environment or in a civil war 
environment, the population feels lethally destabilized and it 
feels like it has no way to be safe. These guys are providing, 
you know, a normative system with rules to follow. And if you 
follow these rules you will be safe. That is one of the things 
that gives them an enormous amount of attraction to the Afghan 
population. If you contrast that with our approach----
    Mr. Driehaus. Could I ask just for a second, if I might, 
Mr. Chairman, the sharia law is obviously based on the 
traditional Islamic law. Are there more traditional judicial 
structures that exist in the countryside that are based upon 
the traditional norms versus sharia law?
    Mr. Kilcullen. There are. However, the tribal structure and 
the community structure in a lot of parts of Afghanistan is 
very heavily eroded by several decades of war and conflict at 
this stage. Tribal custom, in some Pashtun parts of the country 
a very specific code of behavior, is still valid. But what the 
Taliban have tended to do is come in and replace a lot of that 
with their own control through a sharia system.
    If you contrast that to what we did, the Taliban are 
focused on delivering a service to the population at the local 
level. What we did after the Bonn Conference, the Italians were 
given responsibility for the justice sector and the Germans 
were given responsibility for the police. Both those countries 
started building institutions at the level of the central 
state. So we set up a supreme court and we trained supreme 
court judges; we wrote a law code; we trained prosecutors and 
attorneys. This is all happening at the central level. 
Meanwhile, the Taliban were in at the grassroots delivering 
something to the population.
    In terms of the police, we built a police academy and 
structures of command and control and so on in Kabul but we 
didn't deliver effective police, community policing, to the 
population at the local level. The Taliban also took that on. 
The United States got tired of the German approach in 2005 and 
we took it over. We actually made it worse by turning the 
police into a counter-insurgency force and sending them off to 
fight the insurgents out in the countryside instead of being in 
with the population in local areas delivering, you know, 
fairness, rule of law, and justice to the population.
    So I think we need to be taking is a much more bottom-up 
approach that focuses on competing with the Taliban. And you 
have to compete with the Taliban on the basis of an agreed set 
of, you know, human rights, rule of law principles. The PRT 
officers who are doing the rule of law program are hampered by 
the overall structural approach that we have taken which has 
been top-down. We need to move to more of a bottom-up where we 
negotiate with local populations, come to an agreement, and 
enforce protection and population security at the local level.
    Mr. Tierney. Thank you. Thank you, Mr. Driehaus. 
Ambassador.
    Mr. Dobbins. Just on delivery of assistance and public 
services, one of the most effective delivery methods is called 
the National Solidarity Program, which is an Afghan run program 
to deliver small level projects to villages and towns based on 
what councils in those villages and towns say they want. So it 
is a bottom-up approach defining the projects and then the 
Afghan government delivers the resources. Naturally, it is 
being funded by international assistance and so far the United 
States has only put in 5 percent of the total and we are 50 
percent of the total aid for Afghanistan. So that is a very low 
allocation. I think one of the things we ought to be doing is 
increasing the resources available to this Afghan run 
institution and then using the PRTs to support and facilitate 
its activity in areas that are contested.
    Mr. Tierney. Thank you. Mr. Kucinich, you are recognized 
for 5 minutes.
    Mr. Kucinich. I thank the gentleman. I would just like to 
make some observations and ask for members of the panel to 
respond.
    In assessing the reports that we have received over the 
last year from Afghanistan, I think it is fair to say that the 
hoped for security that we wanted to bring to the people of 
Afghanistan doesn't exist. We haven't achieved security for the 
people. Currently there is no or limited capacity to hold the 
borders. There is no or limited capacity to govern. There is no 
real focus on Afghanistan and I would respectfully submit to 
the administration that just sending 17,000 troops doesn't mean 
that you have refocused the mission.
    There are limited military resources available for the 
United States of America. There are finite resources with 
respect to our domestic economy. We have a poor track record 
there with awful strategic thinking. We have a war and an 
occupation in Iraq which wasn't necessary and a occupation in 
Afghanistan that has been dubious. We still haven't looked at 
the implications sufficiently of the fact that Pakistan seems 
to be core to so many of these problems to begin with.
    Does it cause any of you to start to rethink the underlying 
assumptions about our military presence there and what is 
achievable, particularly if you look at it though the lens of 
historically the British and the Russians? I would just like to 
hear your response.
    General Barno. Maybe I can dispatch this briefly. I think 
it is important also to reflect the broader context of our 
participation there. Clearly we all recognize that it was 
initiated because of 9/11. But I think the reason that it is 
important for us to succeed in this area is because of the 
strategic neighborhood showing up on that map there that this 
represents. If we look at the global threats to American 
security today, I think I could make a pretty reasonable 
argument that the principal threat to American security, to the 
security of the American people, comes from this region. So in 
terms of having military forces there to prevent that threat 
from being realized, to roll that back and to reduce that, to 
help our civilian counterparts to be able to establish a stable 
region that is economically viable and that has a reasonable 
degree of governance and rule of law so that it doesn't go off 
the edge of the cliff and become once again a launching ground 
for attacks on the United States or our allies, I think that is 
an extraordinarily important and valuable objective. And our 
military forces, again in concert with the civilian dimensions 
of this, are, I believe, essential in order to achieve that 
objective. I don't see any other means by which to do that. We 
certainly have had some problems which I clearly recognize in 
the last 2 to 3 years in Afghanistan. But I have also seen what 
success can look like in Afghanistan. I think with a revamped 
effort here in the next 2 to 3 years we have great prospects to 
turn this around.
    Mr. Kucinich. Do you see any hazard in which a more 
extended occupation would fuel a more extensive insurgency?
    General Barno. I don't view this as an occupation. But more 
importantly, the Afghans I talk to--and I had this discussion 
with Afghan and Pakistani military officers yesterday here at 
my Center in D.C.--the Afghans violently reject the idea that 
this is an occupation. They want the international forces 
there. The polling that is done even in the population very 
much supports in the 50 to 60 plus percent range the presence 
of international forces there as the only thing that can keep 
Afghanistan from descending back into civil war and to chaos. 
So this is not viewed that way even though we see a lot of 
media reporting that would indicate that. The objective 
measures in Afghanistan say that is not how it is looked at.
    Mr. Kucinich. Does anyone else want to try to respond to 
that?
    Mr. Kilcullen. We often hear this graveyard and empires 
argument. You know, the British couldn't hold Afghanistan; the 
Russians couldn't hold Afghanistan; the Persians couldn't hold 
Afghanistan. Why should we think that we will be able to 
succeed in Afghanistan. The fundamental difference, which the 
Russians never had and the British never had, is that we have a 
very substantial level of support from the Afghan population.
    There have been some recent polling figures that have 
really supported that. I am going to quote to you from the less 
positive one. The more positive ones are, you know, let us 
discount them and go to the most negative which is the ABC, 
BBC, and AID poll that was conducted on January 30th this year. 
President Karzai's approval rating in Afghanistan at the moment 
is 52 percent.
    Mr. Kucinich. How do they poll the tribes?
    Mr. Kilcullen. It is a poll across the whole of the country 
and it is based on a cluster method. So it is not tribes they 
are polling but villages and districts.
    Mr. Kucinich. Mr. Chairman, I think it would be interesting 
to look at the methodology of some of these polls since they 
are being used to try to interpret public opinion.
    Mr. Tierney. You should feel free to do so, Mr. Kucinich. I 
am sure there are available publically.
    Mr. Kilcullen. You can get the poll online and it has a 
whole section on methodology, which is worth taking a look at. 
There is extensive polling that happens in Afghanistan. I am 
quoting from the least positive. Eighty-two percent of people 
polled want the current government in power. Only 4 percent see 
any benefit in the return of the Taliban. Eighty-five percent 
of people think that the Taliban are the greatest threat to 
stability in Afghanistan. Interestingly, 63 percent of people 
support the presence of U.S. troops which is slightly higher 
than those who support the presence of other international 
troops. Sixty-three percent is enormous levels of support 
compared to anything that we have ever had in Iraq or any of 
the other campaigns that we have been in.
    Mr. Kucinich. Do you know what the percentage was of the 
American people who first supported the invasion of 
Afghanistan?
    Mr. Kilcullen. These numbers have gone down about 20 
percent in the last 2 or 3 years so we are seeing a drop in 
support. But it is a drop from an extremely high level. So I 
think to say that the Afghans don't support the occupation is 
just not based on fact. The Afghans do support the presence of 
the international community.
    Mr. Kucinich. I would respectfully dispute the relevance of 
polling on these national security issues. That is on both 
sides.
    Mr. Kilcullen. Let me offer two other comments. I mean, 
polling is one of the measures we have right now. It is not the 
only measure. But if we are going to dispute the polling 
numbers we have to have something other than polling numbers to 
dispute them with. The other point I would make is American 
popular support for the presence in Afghanistan is important 
but America is 1 of 41 countries that are contributing to the 
effort. The most important player is actually the Afghan 
government, in my view.
    Mr. Kucinich. Thank you. Mr. Chairman, thank you.
    Mr. Tierney. Thank you, Mr. Kucinich. There are so many 
questions we are going to ask and we have narrowed the panel 
down here a little bit so I think Jeff and I will have a chance 
to do that if you have the patience for us.
    To keep Afghan support, would there be a recommendation to 
limit the air strikes and the raids that have been going on? I 
hear people talking about shifting our policy to more of one of 
defensive, protective ideas and--correct me if I am going too 
far--that we think that perhaps having the offensive, continual 
strike aspect of it has not been terribly effective because 
they keep replacing themselves over and over again.
    But also we are getting the indigenous population more than 
a little riled up about the collateral damage that occurs. 
Whatever drop in those polls may have occurred may somewhat be 
related to the effect of the air strikes and the raids, which 
we heard earfuls of when we were over there on our last several 
visits and that and seem to have a tremendous impact. That is 
understandably not a poll, but it is just various groups that 
we talked to.
    Mr. Kagan. I agree with you. I think that what we have been 
doing has been very problematic, not so much the approach of 
going after key leaders, but I think it has to do with very 
specific tactics that we have tended to use on the ground. At 
the end of the day, night raids on villages are just a really 
bad idea unless you really, really, really have to do it. You 
run into old Pashtun views about how, you know, when the cattle 
rustlers descend on the village at night, every red blooded 
young man with an AK has to run out and fight them. And you can 
explain to them all you want that cattle rustlers don't have 
helicopters, but the fact remains that there is that instinct 
to come out and do that. There are other ways of conducting 
those kinds of raids. I think that the command is very 
sensitive to this.
    The issue of collateral damage is a very interesting one 
and I would like to just drill down on that for 1 second 
because this is a question of a major cultural difference 
between Iraq and Afghanistan that we need to understand. The 
amount of collateral damage that is being done in Afghanistan 
is absolutely trivial compared to the amount of collateral 
damage that was done in Iraq with infinitely less complaint 
from the locals about the collateral damage. We rubbled 
Fallujah and Ramadi and the complaint was not about the 
collateral damage on the whole. One JDAM goes astray in 
Afghanistan and you have a huge uproar about it. Now, part of 
that is because the enemy we are facing has a magnificent 
information operation campaign, the best in the world that I 
have ever seen. We have not been able to counter that 
effectively. But part of it is an Afghan tradition that is 
different from Iraqi tradition, Iraqis are much more 
comfortable fighting within their population. Afghans are very 
uncomfortable fighting within their population centers. That is 
why you see rural insurgencies in Afghanistan rather than urban 
insurgencies.
    So I think this is an issue that can be dealt with by 
appropriately modifying our tactics, techniques, and procedures 
for these kinds of raids. And I think that you will find over 
time that the command has taken this onboard and that 
appropriate changes will be made.
    Mr. Tierney. Now, I think it is generally agreed across 
this panel and the last panel that we talked to that most of Al 
Qaeda if not all of Al Qaeda are situated now in Pakistan and 
that what we see going on in Afghanistan is various 
insurgencies that have more localized ambitions and tensions. 
One of the principal arguments that we always hear for keeping 
troops at higher levels in Afghanistan is that we can't let 
Afghanistan fall to the insurgents because we are afraid they 
will invite Al Qaeda back in and that Al Qaeda will have a safe 
haven from which they will cause problems.
    So I have two questions related to that and that I seek an 
answer on. One is, I think that assumes that the problems of 9/
11 happened because of Afghanistan when, in fact, most of the 
planning seems to have happened in Germany and Florida. It 
certainly could have happened whether or not Al Qaeda was in 
Afghanistan. Second, there are other ungoverned areas from 
which Al Qaeda is operating right now in Pakistan. It could be 
Somalia; it could be Sudan; it could be any number of countries 
out there and I have not heard anybody make the recommendation 
that we send enormous numbers of troops into those areas and 
start any of this sort of tactics and strategies we talk about 
here.
    So if the principal threat to America, General, as you 
said, comes from this region, how is that so? Why is the 
principal threat from this region not just by nature the fact 
that these people that have bad intentions toward America plan 
in places like Pakistan, Sudan, Somalia, Algeria, or wherever 
it might be? Why don't we treat Afghanistan the same way we 
treat those regions in terms of what actions we take to be 
defensive?
    General Barno. I think that is a very good question. I 
would argue that the threat, to put a fine point on it, is Al 
Qaeda and Al Qaeda is resident in this region. They are not as 
physically present today in Afghanistan as they have been in 
the past but they are very interested in reasserting that 
presence. They are in Pakistan because in some ways they have 
been pushed out of Afghanistan, mostly as a result of our 
response to 9/11. But they are still alive and active. And they 
require a sanctuary to be effective. They require protected 
areas to think, to plan, to train their operatives, and to have 
essentially a home base. Our presence in Afghanistan is going 
to prevent that from recurring if we sustain it in the country 
of Afghanistan. It is also going to have a positive effect on 
Pakistan and their ability to keep pressure on Al Qaeda. In an 
unclassified setting we can't talk, obviously, about what the 
United States may be doing directly against Al Qaeda inside 
those tribal areas. We read about inferences in the newspaper 
about that regularly. But I think our presence in Afghanistan 
is an insurance policy against Al Qaeda resuming its full 
capability in Afghanistan and in Pakistan. If we are not there, 
the likelihood of the Pakistanis putting pressure on them and 
being effective with that, I think, is extremely low. So 
success in Afghanistan will give us a much stronger position 
and likelihood of success in pressuring Al Qaeda and hopefully 
disrupting and destroying Al Qaeda inside of Pakistan.
    Mr. Tierney. Does somebody else want to take a stab at 
that? Ambassador. I mean, I still have some questions left, 
General, after you gave me that answer. Ambassador.
    Mr. Dobbins. I will just say that the proximate danger is 
not that Afghanistan is going to fall to the insurgents. That 
probably wouldn't happen even if we left. The Indians, the 
Russians, the Iranians would support the northern half of the 
country.
    Mr. Tierney. That was one of my next questions.
    Mr. Dobbins. The proximate danger is that the country will 
descend deeper into civil war, a civil war on the scale that we 
saw in Iraq--which is 10 times higher than what it is today in 
Afghanistan--or civil war such as we saw in the 1980's and 
1990's--which was probably 10 times higher than what we saw in 
Iraq--with five million refugees generated and a sense of 
disorder that will invite in extremist elements. I mean, even 
if the Taliban were to say, if you leave Afghanistan we will 
abandon Al Qaeda, and we left, that wouldn't end it. That would 
simply deepen the civil war and Al Qaeda would come right back 
in with other extremist elements.
    Mr. Tierney. But I guess my point is, you know, when I go 
back to my district, here is what a lot of people say: Al Qaeda 
is somewhere all the time. All right? They are either in 
Pakistan or they are in Somalia or they are in Yemen or they 
are in all these places or whatever. So if they go into 
Afghanistan, they are just in one more place. You still have to 
have a policy but the policy that you have in Afghanistan seems 
to be radically different than the policy you have to deal with 
the Al Qaeda presence in Yemen, Somalia, Sudan, and Pakistan. 
You don't send troops in. You don't build bases. You don't do 
all of those things there. That is the part that I am trying to 
get at here. You know, you have this huge presence. You are 
building who knows how many forts out there of various sizes, 
sending in more troops, running around battling Taliban--that 
we admit are not Al Qaeda--all in the prospect that Al Qaeda 
might move back in. Meanwhile, they have set up residence in 
other places and nobody is saying, well, it is in the U.S. 
interest to go in full force with the military and the rest of 
the Coalition into those places. That is something I never 
really got a satisfactory answer to. And, you know, I think it 
still begs the question on this. Doctor, do you want to give it 
a shot?
    Mr. Kagan. I do. I want to make the point first of all that 
not all Al Qaeda is equal. There is an Al Qaeda global 
leadership cell. It is located in this vicinity. It had 
previously----
    Mr. Tierney. Located in Pakistan.
    Mr. Kagan. Yes. It had originally been located in 
Afghanistan. Now it is located in Pakistan.
    Mr. Tierney. And you don't recommend sending troops into 
Pakistan in a full force of 17,000 or 50,000 and going after 
them, do you?
    Mr. Kagan. I don't recommend that, Congressman. But I would 
say----
    Mr. Tierney. But you recommend doing that in Afghanistan 
where Al Qaeda leadership is not?
    Mr. Kagan. I have never tried to sell the war in 
Afghanistan on the basis of that is where Al Qaeda is and that 
is where we have to fight them. I think it is unfortunate that 
a lot of rhetoric, including from candidate Obama, focused on 
that interpretation of the problem. I think that we have to be 
able to take a broader geopolitical view of this.
    But to address just the Al Qaeda question, we know that Al 
Qaeda global senior leadership is in Pakistan. We are working 
in a variety of ways to cajole and assist the Pakistanis to 
address that problem. What I am here to tell you is that it is 
inconceivable that the Pakistanis will be able successfully to 
address that problem if we do not keep make Afghanistan 
functional and stable. You can't separate these two issues in 
that respect. So if you abandon Afghanistan, you are also 
abandoning the effort to get the Pakistanis to----
    Mr. Tierney. Can you tell me why that is?
    Mr. Kagan. Absolutely.
    Mr. Tierney. Let us suppose that Afghanistan reverts back 
to its historical premise of fighting each other. This seems to 
be their natural state in some instances or whatever. That 
happens. Why is it all of a sudden Pakistan is that much worse 
off than they have been in years past?
    Mr. Kagan. Absolutely. First of all, I would make a serious 
suggestion to the committee that you hold a classified briefing 
and bring in as many of the intelligence analysts and experts 
as you can from the theater. Have them lay out for you in 
detail how all of the enemy groups there are----
    Mr. Tierney. We had that last week. We did that with the 
DNI and other people and supporting groups were there. I am on 
the Intelligence Committee; I do it on a regular basis.
    Mr. Kagan. OK. The groups are heavily interconnected. There 
are groups on both sides of the border that are related to Al 
Qaeda and related to other groups. In particular, the Haqqani 
network is moving in the direction of playing a much greater 
role with Al Qaeda and Lashkar-e-Taiba and these other very 
radical groups than the Mullah Omar Quetta shura is. The 
problem is that the Haqqani network has its base in Miram Shah 
in the federally Administered Tribal Areas but it has a very 
significant support zone in Afghanistan in the Zadran Arc in 
Khost Province. Now, if we were to abandon Afghanistan, what 
you would find is that the Haqqani network, as an example, 
would absolutely reestablish itself in Khost Province--its 
traditional strength--and it would then immediately, I can 
promise you, provide facilitation and assistance to Lashkar-e-
Taiba and Al Qaeda and provide them refuge from any Pakistani 
attempts to go after those groups.
    If we can maintain Khost as we are now maintaining it, as 
an area which is highly contested but where we are going after 
these guys--and I frankly think we need to go after them more 
in that area--then we create the possibility, and it is only a 
possibility, but we create the possibility for Pakistani 
success against Al Qaeda if we can move them in that direction 
to actually be decisive in this area. If you don't maintain 
control of Afghanistan, then I can assure you that any 
Pakistani success on their side of the border will be 
absolutely ephemeral.
    Mr. Tierney. So you are trying to stop Al Qaeda from doing 
in Afghanistan what they have already done in Pakistan and what 
they have done in Yemen, Somalia, Sudan, and everywhere else 
they have set up base and been able to operate in somewhat 
ungoverned territories. You are just doing it in an entirely 
different way. I mean, I hear what you are saying in terms of 
the fears that they are all going to move in. I just still 
don't make the distinction of how we treat all these different 
areas.
    The other part, Ambassador, going back to your comments, if 
your argument is to put the Al Qaeda situation aside for a 
second because there is a bigger, larger strategic need for the 
United States to be there and mostly it is because we don't 
want to see Afghanistan break down into civil war again, what 
is your message to the American people? The American people are 
absolutely beside themselves in the economic situation that is 
going on right now, exhausted from all the time that we have 
spent diddling around in Iraq which was a totally unnecessary 
place to be, and have now spent 6 or 7 years in Afghanistan 
that have turned out to be counterproductive to the point. How 
do you sell them on the idea that we just don't want a civil 
war in Afghanistan so spend another $50 or $100 billion and 
send more of your children over there and maybe you can help 
out?
    Mr. Dobbins. Afghanistan is not a country which is 
predisposed to civil war. It is a weak country surrounded by 
powerful neighbors which is vulnerable to their manipulation. 
Left to its own devices, the Afghans can get along. The ethnic 
and religious and linguistic tensions are not as keen as they 
are in Iraq, for instance, or as bad as they were in the 
Balkans. It is a geopolitical question. Afghanistan will be at 
peace when the Iranians, the Indians, the Pakistanis, and the 
Russians agree that they have a common interest in a peaceful, 
nonthreatening, functioning Afghanistan.
    Mr. Tierney. But what are we doing in that regard? I mean, 
I think that is a point you have made in previous testimonies 
also. It an excellent point. But, you know, where are all these 
countries that probably have a more immediate interest in this 
area than the United States does? I mean, it is the drugs that 
are going through Iran and India, up through Russian-stans and 
into Europe. It is the unsettled area that affects them more 
immediately than us. So where are they in all of this?
    Mr. Dobbins. They have to be involved. In fact, Mrs. 
Clinton has called a meeting of regional powers in the next 
week or two in order to sustain a dialog. We had a very 
successful engagement back in 2001 with most of these 
countries. But Pakistan remained ambivalent and not ready to 
really commit to the agenda that all the other countries were 
willing to commit to.
    There is no short term answer. The long term objective is 
to create a regional balance in which all of Afghanistan's 
neighbors recognize that a nonthreatening Afghanistan is in 
their interests and don't use it to advance their interests 
vis-a-vis the other countries of the region. In my testimony I 
have a rather elaborate suggestion about how to do that in 
terms of an international agreement in which Afghanistan 
finally recognizes the border with Pakistan--which it refuses 
to do and has consistently refused to do--Afghanistan and 
Pakistan promise not to use their territory against the other, 
the United States and NATO promise to leave as soon as these 
other provisions are accepted, and Afghanistan is declared a 
permanently neutral state.
    I think this is a viable diplomatic objective. It is not 
something that is going to come overnight. But sorting out 
those differences is, I think, a key to pacifying the area and 
thus reducing the sources that create these extremist groups 
that transit the region and in at least one case have global 
objectives.
    Mr. Tierney. Thank you. One second as I get some 
information on what the votes are here for us. There are going 
to be seven votes. It will take about an hour on that part. So 
do you want to do another 5 minutes and then break and ask 
folks to come back or just come back?
    Mr. Flake. I think we will have a hard time getting people 
back. These are the last votes of the day.
    Mr. Tierney. I am a person who will come back. I know you 
will come back as well. So can we break for an hour while we 
get these votes done? Is that something that you folks are 
willing to do, come back for another half hour or so?
    Mr. Kagan. Congressman, I am not going to be able to do 
that. I have appointments.
    Mr. Flake. Let me ask Dr. Kagan right now, if I can, about 
the war on poppies there. Is it a necessary role for our 
military--I know for the first time a while ago, NATO OKed the 
use of strike force to go at these--or is it a distraction? I 
noted a very different reaction from President Karzai when we 
saw him in December than we did 4 years ago. Four years ago he 
said this was the mother of all battles. This time he dismissed 
it, saying it was not a problem. In your view, is this a battle 
that we have to wage militarily now in order to succeed or is 
it a distraction?
    Mr. Kagan. Well, it is sort of a little more complicated 
than that. I think the problem with the poppy eradication 
effort is that it has been sold as a part of the counter-
insurgency strategy. I do not believe that it plays a positive 
role in the counter-insurgency strategy. I recognize published 
reports say that something like $500 million a year go from the 
narco-trade to the Taliban. I expect that is true. When you 
look at what the poppy eradication effort can do in terms of 
how much money it can actually take out of their pockets a 
year, the range is something between $25 and $50 million a 
year. That is not going to make a significant dent in their 
capabilities over the next few years. Therefore I don't think 
that we should see this as part of the short term counter-
insurgency effort. And of course there are negative 
consequences from the counter-insurgency point of view of 
eradicating poppies and pissing people off.
    But I do think that since we are concerned with 
establishing a stable, legitimate government in Afghanistan and 
since I do think that the popular sense of pervasive corruption 
in that government stemming from the narco-trade is a major 
problem in its legitimacy, we absolutely have to take this 
onboard. I would say that I echo the sentiments of everyone who 
has lamented the absence of an effective rule of law program in 
Afghanistan. I too lament it and I think it should be a major 
focus. I think that having the Afghans convict two senior 
government officials--and one of them doesn't have to be 
Karzai's brother--of narcotics related crimes would be more 
effective than killing thousands of hectares of poppy in 
helping establish the government's legitimacy.
    Mr. Kilcullen. Could I just make a quick follow on comment? 
Poppy production has flatlined in the last 2 years. It hasn't 
actually gotten larger. And what we have seen is, in fact, a 
very substantial shift in geographical focus where most of the 
poppies are now being grown in enemy controlled areas, 
particularly in Helmand Province. The other big shift, though, 
that we have seen has been a vertical integration. Two or 3 
years ago, they would take poppy and turn it into opium paste, 
then export the opium paste for sale. Now they are actually 
producing heroin in country. That actually creates an 
opportunity for the military to be involved in interdiction as 
distinct from eradication. Eradication hurts the farmers. If 
you take two or three fields worth of poppy and boil them down 
to 10 kilograms of heroin, the farmers have already been paid 
if you interdict the 10 kilograms of heroin later on. So there 
is a role for law enforcement and the military in the 
interdiction part of the process. And that avoids a lot of the 
eradication issues that we have had. The final point I want to 
make is that it is a $4 billion industry. The Taliban gets 
about $500 million out of that. The farmers get $800 million. 
The biggest beneficiary of the narcotics trade is the Afghan 
government, corrupt officials inside the Afghan government. So 
until we change that, I don't think we are going to get much 
progress.
    Mr. Tierney. Thank you. I know that several of you have 
difficulty coming back in an hour so I am going to try to fire 
off some questions here. Will the Afghan elections be an 
appropriate measure as to whether or not our plan is working? 
How well they go, is that a metric that people will be able to 
judge whether or not what we decide to do now is actually 
working?
    Mr. Kagan. No, I don't think so.
    Mr. Tierney. Doctor.
    Mr. Kilcullen. Yes, but I think we would perhaps disagree 
less than it might appear. I think it is not a measure of 
whether we are achieving security who gets elective, it is 
whether the elections go off in a safe and transparent manner.
    Mr. Tierney. That is what I meant.
    Mr. Kilcullen. If that happens, I think we can say we have 
done well.
    Mr. Tierney. OK. Dr. Kagan, you disagreed. Ambassador 
Dobbins.
    Mr. Dobbins. One of the strengths we have there is we have 
a legitimate government. We have a government that is 
recognized throughout the world and by the vast majority of 
Afghans as genuinely representative and legitimately elected. 
That is a treasure. The government may be more corrupt than we 
would like, it may be less competent than we would like, but it 
is legitimate. If we lose that, if the election results are 
contested or are inconclusive in a way that the result doesn't 
clearly represent popular expression, it will be a major 
setback.
    General Barno. It is a partial metric and it is an 
extremely important one. It is the strategic report card this 
year on the entire enterprise so it has huge political 
implications as well as military.
    Mr. Tierney. Dr. Kilcullen quotes in his book Bernard Fall 
who said in 1975 that if you are losing to an insurgency, you 
are being out-governed, you are not being out-fought. I hear a 
lot of comments that made it seem to me that people agree on 
that. How are we going to get the Karzai government to be 
better Governors? I think the similar question is in Pakistan, 
how are we going to get that government to be a better 
government? It goes back to some of the things the Ambassador 
put in his written testimony about perhaps conditioning some of 
the assistance. The only leverage we have is the money that we 
are putting in there. And I am sure that you probably don't 
want to condition the civilian development and assistance types 
of things so much. But where the military has such a large play 
in Pakistan and when we have to get Karzai to move in 
Afghanistan, ought we to be conditioning the military aid that 
we give to these countries?
    Mr. Kilcullen. I think that is very true in the case of 
Pakistan. In the case of Afghanistan, I think we can do a lot 
with the partnering model where we have U.S. troops always 
working with Afghan troops and Afghan police. One of the things 
we found in Iraq and also in the parts of Afghanistan where we 
have done this before is that when you do that, the performance 
of all three elements improves. The U.S. troops have a better 
understanding of the environment so they do better. The Afghan 
troops have a model for how to operate so they do better. And 
you have a police guy standing next to a military guy and the 
military guy is saying, why are you taking a kickback from that 
guy, why did you beat that old lady up, and enforcing a more 
equitable situation.
    Mr. Tierney. If we can get the people on, you have about a 
1,500 mentor shortfall just on the police side of that.
    Mr. Kilcullen. Yes. And so this is not instead of 
mentoring. You don't necessarily send mentors. You have an 
Afghan unit next to an American unit and the unit performs the 
mentoring function.
    Mr. Tierney. Doctor, you also said that we need to be 
reducing overall force commitment everywhere, not just moving 
troops from Iraq to Afghanistan. That would be tantamount to 
unbogging ourselves from Iraq just so we can rebog ourselves in 
Afghanistan. Is everybody fairly certain that we don't need to 
be putting large additional amounts of troops into Afghanistan 
to accomplish the counter-insurgency that you have all talked 
about? Or are there some people that believe that we need to 
put in some of the numbers that we have read like 400,000 or 
600,000?
    General Barno. I think you will probably find some 
consensus that 400,000 number, the vast majority of which will 
be new Afghan security forces, is probably a fairly good number 
of police and Afghan national army. The U.S. troop 
contribution, and we have seen the front end of that at least, 
is 17,700. It is not clear exactly what will be announced 
tomorrow. But I think we have to be very careful from a 
military standpoint--and Dave Kilcullen and I have written and 
talked about this--is we have to think about what we are trying 
to achieve this year, next year, and the following year and how 
much military force we are going to need to do that. Getting 
that additional several hundred thousand Afghan security forces 
together, generated, built, and trained is going to take some 
time. The gap filler in a lot of ways will need to be American 
forces.
    Mr. Tierney. Dr. Kagan, do you want a shot at that?
    Mr. Kagan. Yes. I just want to say, you know, it is very 
hard for anyone to sit in Washington and make evaluations about 
force requirements in Afghanistan. But I think when you do go 
around to the theater and look at the threat problems and you 
look at the gaps, I can see a requirement in Afghanistan for 
maybe 10 American brigades starting next year and lasting for 
maybe 12 to 18 months.
    We had at the height of the Surge 22 brigades in Iraq. I 
just don't see a requirement for a commitment of that size from 
the United States or anything like it. But I do think that 
there is a risk that we are going to lowball the estimate of 
what we need, possibly in the President's statement, we will 
see what he says, but certainly this year. But I also think 
that we should not imagine that we are getting into the 
slippery slope that leads us all the way up back to Iraq sort 
of levels.
    Mr. Tierney. Let me end with this. David Ignatius did an 
article called the Roadmap for Afghanistan back on March 19th. 
At one point he started talking about the typical Al Qaeda 
situation. The process begins with infection as Al Qaeda 
establishes a presence. Next comes contagion as Al Qaeda uses 
its haven to mount attacks. Then follows intervention by the 
United States to destroy Al Qaeda's sanctuary and its Taliban 
protectors. And that produces rejection as the local population 
allies with Al Qaeda and the Taliban against the foreign 
invaders. For America it is a costly and self-defeating 
exercise, which is precisely what Al Qaeda intends. Dr. 
Kilcullen quotes a haunting 2004 statement by Osama Bin Laden. 
All we have to do is send two mujahideen to the furthest point 
east to raise a cloth on which is written Al Qaeda in order to 
make the U.S. generals race there to cause America to suffer 
human, economic, and political losses. So we are continuing 
this policy of bleeding America to the point of bankruptcy. I 
think, you know, a lot of people are beginning to think that is 
the case here. So how do we prevent the Yemens and Somalias and 
the Sudans from being more of that bleeding at the same time 
that you are recommending sort of following that pattern into 
Afghanistan?
    General Barno. Very briefly, I think this goes back to the 
geopolitical issue that Ambassador Dobbins points out. Those 
other locales you identified--the Yemens, the Somalias--I would 
call those very small franchise operations of Al Qaeda.
    Mr. Tierney. At present.
    General Barno. Yes, correct. And I don't think they can 
necessarily become Al Qaeda's core, Al Qaeda central, without 
very obvious moves that we are going to see and detect. What in 
this region we have to be concerned about is the entire region 
becoming destabilized by a failure in Afghanistan and a return 
to civil war, by a great game not played by the United States 
but played by those regional nations in our absence. And the 
destabilizing country of most worry, of course, is Pakistan. 
Our efforts in Afghanistan are aimed and need to be aimed as 
much at Pakistan, maintaining stability there, as they are 
inside of Afghanistan.
    Mr. Kilcullen. I will just make one comment. I think that 
it is always a bad idea to invade a country because Al Qaeda is 
there. It just creates many, many more problems than you solve 
by going in. But we have to remember how we got to where we are 
in Afghanistan. On the day that Kandahar fell, which was the 
last major Taliban stronghold, there were 100 CIA and about 400 
Special Forces in country. We didn't actually invade 
Afghanistan in a large scale fashion to deal with Al Qaeda. 
What happened was the international community got together in 
the Bonn Agreement and later in the 2006 Afghanistan Compact 
and made a commitment to the Afghan people to stabilize the 
country.
    So I don't believe that it is a good idea to go and invade 
countries as you quoted because of Al Qaeda. I don't think that 
is what we did in Afghanistan. I think we are there honoring a 
commitment to the international community and to the Afghan 
people. And I think it is a valid activity for the U.S. 
Congress to say, all right, how much are we prepared to spend 
on that? I think what we need to do is be very careful about 
just escalating to success. We need to say, all right, how much 
are we prepared to spend and that is a sufficient amount. So I 
think this is a very valid activity.
    Mr. Tierney. That is an interesting point. You know, I 
think it was 1,300 Marines and about 1,000 Special Operations 
people with some air strikes was the entire October 2001 
enterprise there. A few weeks later, Kandahar was falling. So I 
was interested to hear your take on why it is that we remain in 
such numbers, and I suspect that is probably very accurate.
    I think what I take out of this, first of all, is a great 
appreciation for all of you for what you have done in terms of 
trying to put this together and contextualize it in testimony. 
I am personally left with the idea that there is no way out of 
this thing without involvement of other people. It keeps going 
back to Ambassador Dobbins. In previous hearings it was the 
same thing. I mean, we are not going to resolve this without 
Iran, India, China, Russia, the 'Stans, Europe, and all these 
others understanding that they have to pony up and get involved 
in this thing.
    I appreciate what you said, Dr. Kilcullen about being there 
because of the commitment that was made but it certainly looks 
to a lot of us that the commitment is being paid with American 
lives and dollars more so than some others who have probably a 
more immediate problem there than we do. I am not sure how we 
are going to address that, but I think that is something that 
we have to address.
    Again, thank you all very, very much. I appreciate all of 
the efforts that you have made and your being here today. It 
has been a substantial help to all of us. Meeting adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
